           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
       IDENTIFIERS IN REGION V

      June 2005   A-05-05-15081




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY


MEMORANDUM

Date:   June 7, 2005                                                                         Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region V
        (A-05-05-15081)


        OBJECTIVE

        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND
        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        almost half of member institutions that responded to a 2002 survey used SSNs as the
        primary student identifier.1 Although no single Federal law regulates overall use and
        disclosure of SSNs by colleges and universities, the Privacy Act of 1974, the Family
        Educational Rights and Privacy Act, and the Social Security Act, contain provisions that
        govern disclosure and use of SSNs. See Appendix B for more information on the
        specific provisions of these laws.




        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, The
        American Association of Collegiate Registrars and Admissions Officers.
Page 2 – James F. Martin


We selected a sample of 12 universities2 in Region V.3 For each selected university, we
interviewed university personnel and reviewed the policies and practices for the use of
SSNs. See Appendices C and D for additional details on the scope and methodology of
our review and a list of the universities we contacted, respectively. We are conducting a
review in each of the Social Security Administration’s (SSA) 10 regions and will issue
separate reports to each Regional Commissioner.

RESULTS OF REVIEW

Based on interviews with personnel at 12 universities and reviews of the universities’
policies and practices, we identified 7 universities that use the SSN as the primary
student identifier, even when another identifier would suffice. The unnecessary use of
SSNs increases the potential for unscrupulous individuals to gain access to these
numbers and misuse them, thus creating SSN integrity issues. To address such issues,
five universities included in our review have taken steps to eliminate or reduce SSN
use.

UNIVERSITIES USE SSN AS PRIMARY STUDENT IDENTIFIER

Universities typically collect student SSNs on admissions applications and financial aid
forms. The universities use SSNs for a variety of purposes, such as applications for
admission, class registration, class rosters, grade reporting, computer log on, and
transcript requests. Of the 12 universities in our review, we found that 7 used the SSN
as a primary student identifier because of computer system requirements, common
historical practice, convenience, and/or identity verification.4 In addition, we found that
one university displayed the last five digits of the SSN on student identification cards.

All of the seven universities using the SSN as the primary student identifier plan to
reduce the use of the SSN where possible within the next 2 years. The university that
displays the last five digits of the SSN on student identification cards stated that cards
will not display any part of the SSN when the university implements their new computer
system. However, none of the universities plan to completely eliminate use of the SSN
as an identifier. The SSN will continue to be used for such purposes as financial aid,
Federal reporting, and payroll. The universities plan to use an alternate number as the
primary student identifier.




2
    The term “universities” will be used to include both colleges and universities.
3
 Region V consists of the following six States: Illinois, Indiana, Michigan, Minnesota, Ohio, and
Wisconsin.
4
  See “Universities and States Limit Use of SSN” on Page 3 of this report for a discussion of the
five universities that did not use the SSN as a primary student identifier.
Page 3 – James F. Martin


UNIVERSITIES AND STATES LIMIT SSN USE

Recent incidences of identity theft at universities have led some schools to reconsider
the practice of using SSNs as primary student identifiers. In fact, five universities, the
University of Northwestern Ohio (UNO), Indiana University – Bloomington (IUB), the
University of Wisconsin – Milwaukee (UWM), the University of Minnesota – Twin Cities
(UMN), and Roosevelt University (RU), assign each student a unique identification
number that becomes the student’s primary university identification number. However,
all five of the universities do use the SSN in some capacity, such as for financial aid
purposes, for Federal reporting, to verify a student’s identity, to help identify duplicate
records, and to verify a transcript.

•      UNO assigns a system-generated identification number when a student is
       admitted to the university that is used as the primary identifier. The university
       has used its current student number system since records were computerized in
       the 1980s. The SSN is used as a secondary identifier. Student records are
       accessible by either the student number or the SSN. Official transcripts are the
       only documents produced by the university that display student SSNs.

•      IUB assigns a random 10-digit university identification number as the primary
       student identifier. Students are not required to provide their SSN to the university
       unless they wish to participate in Federal Financial Aid programs. However,
       most students voluntarily provide their SSN. Official transcripts display the last
       four digits of the SSN, if provided, to facilitate matching student information with
       outside institutions.

•      UWM assigns a nine-digit number as the primary student identifier. Students use
       the university-assigned identifier along with a personal identification number
       (PIN) to access the university’s computer system. However, students can elect
       to use their SSN plus a PIN to access the system. Student records are
       accessible by either the university-assigned identifier or the SSN. The SSN is
       displayed on official transcripts.

•      UMN staff said that the university has never used the SSN as the primary student
       identifier. Students are assigned a university identification number. The
       university has, where possible, made the SSN field optional. The SSN does not
       appear on UMN official transcripts. UMN is establishing a formal policy regarding
       the university’s use of the SSN. The goals of the policy are to reduce the
       collection and use of the SSN where possible and to require disclosure
       statements when the SSN is collected.

•      RU assigns each student a nine-digit student identification number upon
       admission to the university that becomes the student’s primary identifier. The
       university continues to maintain SSN information in the student record. Either
       the student identification number or SSN and a password are used to access the
       university’s computer system. RU has plans to further reduce its use of the SSN
Page 4 – James F. Martin


          by changing forms that request SSNs to instead request student identification
          numbers. RU implemented its current student numbering system on
          November 1, 2004. Official transcripts and mailed grade reports are the only
          documents produced by the university that display masked SSNs.

Five of the six States in Region V have passed legislation regarding the use or display
of the SSN.

•         Illinois passed legislation that directs a task force to “…examine the procedures
          used by the State to protect an individual against the unauthorized disclosure of
          his or her social security number when the State requires the individual to
          provide his or her social security number to an officer or agency of the State.”5

•         Indiana passed legislation that prohibits State agencies from compelling an
          individual to provide their SSN to a State agency against the individual’s will,
          absent Federal requirements to the contrary. Any forms that request the SSN
          must state the reason the SSN is requested and notification that either the State
          is required by Federal law to obtain the SSN and the form cannot be processed
          without it or the individual has the right to refuse to provide the SSN and will not
          be penalized for doing so. In addition, an individual may request that his or her
          SSN be removed from a State agency’s record, and the State agency must
          substitute a new identification number to be used by the individual.6

•         Michigan passed legislation that includes a provision prohibiting the use of “…all
          or more than 4 sequential digits of the social security number as the primary
          account number…” for an employee, student or other individual.7

•         Minnesota passed legislation that requires that an individual asked to provide
          private or confidential data be informed of the purpose and intended use of the
          requested data within the State agency, whether the individual may refuse to
          provide the requested information, any known consequences for not providing
          the requested information, and the identity of those authorized by State or
          Federal law to receive the information. State agencies cannot collect, store, use,
          or disseminate private or confidential data of an individual for any other purpose
          than those stated to the individual at the time of collection. This act identifies the
          SSN and educational data as private.8




5
    20 ILCS § 4040/1 et seq., Social Security Number Protection Task Force Act.
6
    Burns Ind. Code Ann. § 4-1-8-1 et seq., State Requests for Social Security Number.
7
  MCLS § 445.81 et seq., The Social Security Number Privacy Act. Full compliance with this law is
required by January 1, 2006.
8
    Minn. Stat. § 13.01 et seq., The Minnesota Government Data Practices Act.
Page 5 – James F. Martin


•       Wisconsin passed legislation that prohibits an institution of higher education from
        assigning any student an “identification number that is identical to or incorporates
        the student’s Social Security number.” The act defines an institution of higher
        education as either a State or private educational institution located in Wisconsin
        that awards a bachelor’s or higher degree or provides programs that are
        acceptable toward such a degree.9

POTENTIAL RISKS ASSOCIATED WITH USING SSNs AS STUDENT IDENTIFIERS

Universities’ use of SSNs as primary identification numbers entails certain risks,
including potential identity theft and fraud. Each time an individual divulges his or her
SSN, he or she is exposed to having the number stolen and used for unintended
purposes. The exposure to identity theft increases when the SSN is the student
identification number. It is important for universities, as well as individuals, to help
prevent identity theft and fraud to the extent possible by reducing this exposure.

One university we interviewed reported that several years ago, a university server was
breached, and a file with information for approximately 2,000 students was accessed.
The university paid for those students to obtain credit reports. Although we identified no
other instances of SSN misuse at the universities we reviewed in Region V, below are
examples from other universities that illustrate the risks of using SSNs.

•       A university professor in Washington was indicted on 33 counts of mail fraud in a
        scam using students’ SSNs. The professor allegedly accessed the university’s
        records system and used students’ information to obtain new SSN cards by
        posing as a parent. The professor then allegedly used the SSNs to obtain credit
        cards and birth certificates.

•       California authorities arrested a man suspected of stealing the names and SSNs
        of 150 college students and using that information to obtain credit cards and
        charge over $200,000 in the students’ names.

•       A New York school notified about 1,800 students that their SSNs and other
        personal information had been posted on a university web site. The university
        shut down the website.

•       A student at a Texas university was indicted for hacking into the school’s
        computer network and downloading the names and SSNs of over
        37,000 students, faculty, and alumni.

•       A man discovered a computer printout in a trash bin near a Pennsylvania
        university listing SSNs and other personal data for hundreds of students.



9
 Wis. Stat. § 36.32, Student identification numbers, 2003 Wisconsin Act 282; the act takes effect on
July 1, 2006.
Page 6 – James F. Martin


CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
many universities continue this practice. We recognize the challenge of educating such
a large number of universities. However, given the potential threats to SSN integrity,
such a challenge should not discourage SSA from taking steps to safeguard SSNs.
Given the potential risks for SSN misuse and identity theft, we believe SSA can better
safeguard SSN integrity by educating universities about unnecessary SSN use.

One of the universities we reviewed in Region V, UMN, has successfully refrained from
using the SSN as the primary student identifier. In addition, UMN plans to further
reduce the collection and use of SSNs where possible and to require disclosure
statements when the SSN is collected. This practice reflects that UMN recognizes the
increased concern of individual privacy and the risk of identity theft. We believe that
UMN’s practices can serve as a model for other universities to limit their collection and
use of SSNs.

Accordingly, we recommend that SSA:

1. Coordinate with colleges/universities and State/regional educational associations to
   educate the university community about the potential risks associated with using
   SSNs as student identifiers.

2. Encourage colleges/universities to limit their collection and use of SSNs.

3. Promote the best practices of educational institutions, such as UMN, that do not use
   the SSN as student identifiers.

AGENCY COMMENTS

In commenting on our draft report, SSA agreed with our recommendations. The
Regional Commissioner also suggested that SSA's Central Office prepare a national
release of public information materials related to universities' use of SSNs. See
Appendix E for the full text of SSA’s comments.
Page 7 – James F. Martin


OIG RESPONSE
A national release of public information materials related to universities’ use of SSNs
would be an effective forum to educate universities on SSN abuse and to provide
information on the best practices of educational institutions that do not use the SSN as
student identifiers. Accordingly, we encourage the Regional Commissioner to work with
the Deputy Commissioner for Operations to create the national release.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX C – Scope and Methodology

APPENDIX D – Universities Reviewed

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                   Appendix A

Acronyms
Burns Ind. Code Ann.   Burns Indiana Code Annotated
C.F.R.                 Code of Federal Regulations
FERPA                  Family Educational Rights and Privacy Act
ILCS                   Illinois Compiled Statutes
IUB                    Indiana University – Bloomington
MCLS                   Michigan Compiled Laws Service
Minn. Stat.            Minnesota Statutes
PIN                    Personal Identification Number
Pub. L.                Public Law
RU                     Roosevelt University
SSA                    Social Security Administration
SSN                    Social Security Number
UMN                    University of Minnesota – Twin Cities
UNO                    University of Northwestern Ohio
U.S.C.                 United States Code
UWM                    University of Wisconsin – Milwaukee
Wis. Stat.             Wisconsin Statutes
                                                                                   Appendix B

Federal Laws that Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a; Pub. L. No. 93-579, §§ 7 (a) and 7 (b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his or her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose his or
her SSN must inform the individual whether the disclosure is voluntary or mandatory, by
what statutory or other authority the SSN is solicited and what uses will be made of the
SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or to health care providers in the event
of a health or safety emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred these rights are referred to as “eligible students.”


                                                   B-1
The Social Security Act

The Social Security Act states, “Social security account numbers and related records
that are obtained or maintained by authorized persons pursuant to any provision of law,
enacted on or after October 1, 1990, shall be confidential, and no authorized person
shall disclose any such social security account number or related record.”
(42 U.S.C. §405(c)(2)(C)(viii)). The Social Security Act also states, “…[w]hoever
discloses, uses, or compels the disclosure of the social security number of any person
in violation of the laws of the United States; shall be guilty of a felony…” (42 U.S.C.
§408(a)(8)).




                                          B-2
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:

• selected 2 universities from each of the 6 States in Region V – 1 university with more
  than 15,000 students and 1 university with fewer than 15,000 students;

• interviewed selected university personnel responsible for student admissions,
  registration, or information systems either by on-site visit or teleconference;

• reviewed Internet websites of 12 universities;

• reviewed applicable Federal laws and regulations, applicable State laws and the
  Social Security Administration’s (SSA) Program Operations Manual System; and

• reviewed selected studies, articles, and reports regarding universities’ use of Social
  Security numbers (SSN) as student identifiers.

We visited six universities and conducted interviews via teleconference at six others to
learn more about their policies and practices for using SSNs as student identifiers. Our
review of internal controls was limited to gaining an understanding of universities’
policies over the collection, protection, and use/disclosure of SSNs. The SSA
component reviewed was the Office of the Deputy Commissioner for Operations. We
conducted our audit from October 2004 through March 2005 in accordance with
generally accepted government auditing standards.
                                                                             Appendix D

Universities Reviewed
We interviewed personnel at 12 universities in Region V. The table below shows the
names and locations of these schools as well as their total student enrollments.


                          School                           Location          Student Enrollment

    1     Ohio State University                   Columbus, Ohio                    47,375

    2     University of Minnesota – Twin Cities   Minneapolis, Minnesota            42,989

    3     Indiana University – Bloomington        Bloomington, Indiana              37,105
                                                  Mount Pleasant,
    4     Central Michigan University             Michigan                          27,483

    5     College of DuPage                       Glen Ellyn, Illinois              26,874

    6     University of Wisconsin – Milwaukee     Milwaukee, Wisconsin              24,173

    7     University of Southern Indiana          Evansville, Indiana               9,558

    8     Roosevelt University                    Chicago, Illinois                 7,149

    9     Lakeland College                        Sheboygan, Wisconsin              3,829

   10     University of Northwestern Ohio         Lima, Ohio                        2,665

   11     Southwestern Michigan College           Dowagiac, Michigan                2,266

   12     Saint John’s University                 Collegeville, Minnesota           2,027

Source: We determined student enrollment by reviewing the following website: www.collegeboard.com
                                                                        Appendix E

Agency Comments
Date:      May 18, 2005

To:        Inspector General

From:      Regional Commissioner
           Chicago

Subject: Universities’ Use of Social Security Numbers as Student Identifiers
         in Region V (A-05-05-15081) (Your Request of April 26, 2005) -- REPLY

Thank you for giving us the opportunity to comment on the subject draft. We agree with
your recommendations:

1.      Coordinate with colleges/universities and State/regional educational associations
        to educate the university community about the potential risks associated with
        using SSNs as student identifiers.

2.      Encourage colleges/universities to limit their collection and use of SSNs.

3.      Promote the best practices of educational institutions, such as UMN, that do not
        use the SSN as student identifiers.

We will incorporate a discussion of universities' use of SSNs and the need to protect
against SSN abuse into our contacts with educational institutions. We would also
suggest that SSA headquarters prepare a national release of public information
materials on this subject, since most of the instances of SSN abuse in universities noted
in your report occurred in other regions.

If your staff have any questions, they may call Denise Niesman of the Management and
Operations Support, Retirement and Survivors Insurance Team at (312) 575-4241.


                                     /s/
                                James F. Martin


cc: Office of Public Service and Operations Support
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Chicago Audit Division (816) 936-5591

   Teresa Williams, Audit Manager (312) 353-0331

Acknowledgments

In addition to those named above:

   Elizabeth Juárez, Auditor-in-Charge

   Sherman Doss, Auditor

   Anthony Lesniak, Auditor

   Deborah Taylor, Auditor

   Cheryl Robinson, Writer-Editor



For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-05-15081.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
